No: 20-1370

IN THE
SUPREME COURT OF THE UNITED STATES

NIDAL AHMED WAKED HATUM,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, NIDAL AHMED WAKED HATUM, through undersigned
counsel and pursuant to SUP. CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the
Brief of Amicus Curiae Florida Association of Criminal Defense Lawyers filed in the
above-styled matter was placed in the U.S. mail in a prepaid first class envelope,
addressed to the Clerk of the Supreme Court of the United States, on the 19th day

of May, 2021, which is the date that the brief is due.

ab Sec KU

Stephen Binhak, Esq,

One S.E. Third Avenue, Suite 2600
Miami, Florida 33131

(305) 361-5500
binhaks@binhaklaw.com

Miami, Florida
May 2021
